                               NATIONAL SCIENCE FOUNDATION
                                OFFICE OF INSPECTOR GENERAL
                                  OFFICE OF INVESTIGATIONS

                            ACTION MEMORANDUM

TO: AIGI     File Number: 1-95110043                                  Date: 12/19/01

SUBJECT:Dr. Richard Schlecht &
       LaserGenics Corporation

Action:                                     -C-


   1. This case was opened in November 1995, when investigators conducting a review of SBIR
      proposals and awards noticed similar or identical submissions by LaserGenics Corporation to
      different federal agencies.

   2. NSF-OIG initiated an investigation, which concluded in May 1996, and found that identical
      research results in the final reports were submitted to both NASA and NSF. LaserGenics was
      responsible for submitting three false claims: one false claim for each 1/3 payment made by
      NSF for the SBIR Phase I grant. These false claims allowed LaserGenics to receive a
      duplicate grant from NSF in the amount of $49,618.00 (NSF Grant #8961005). Additionally,
      LaserGenics made twelve false statements to DOD, NASA, DOE and NSF.

   3. The case was referred to the AUSA's Office in San ~rancisco,and has been settled. The
      Defendants agreed to pay the United States the sum of $25,000.00, and agreed to the terms
      and conditions outlined in the attached settlement agreement. This case is closed.
     Text Onlv Version                                          U.S. Department of Just
     July 2001
                                                                United States Attorney
     June 2001                                                  Northern District of Califomisl
     May 2001
                         1Ith Floor. Federal Building           Tel: (415) 436-7200
                         450 Golden Gate Avenue, Box 36055      Fax: (415) 436-7234
     April 2001
                         Sen Francisco, Califomla 94102
     March 2001
                         FOR IMMEDIATE RELEASE
     Febuary 2001

     January2001
                         February 22,2002

     December 2000       TtieUnited States Attorney's-Office for the Northern District of
                         California announced that Richard G. Schlecht and his privately ow
aD
-
     November 2000

     October 2000
                         corporation, LaserGenics Corporation, have agreed to pay to the
                         United States $25,000 to settle a lawsuit which alleged they knowin
                         made false statements and certifications to various federal
     September 2000      governmental agencies in an attempt to receive duplicate research
                         grants under the Small Business Innovation Research Program, in
     August 2000         violation of the False Claims Act.

                         This settlement resolves a lawsuit, United States v. LaserGenics
                         Corporation and Richard G. Schlecht, Case No. C-97-20900-JF, filf
                         against Schlecht and LaserGenics under the False Claims Act, 31
                         U.S.C. 3729-33. 'The underlying lawsuit alleged that the defendar
                         who were engaged in the business of conducting laser research
                         utilizing different scientific methods of fiber growth, submitted
                         substantially similar or essentially equivalent grant proposals to the
                         National Science Foundation and NASA, and obtained funding fron
                         each agency to conduct the same research; at the conclusion of thf
                         research, the defendants submitted virtually identical final reports ir
                         order to receive final grant payments. The lawsuit further alleged tt
                         the defendants also submitted to several government agencies at It
                         twelve other grant proposals on five different research projects that
                         were substantially similar or essentially equivalent to previously
                         submitted proposals that were either pending with or funded by othc
                         agencies, including the National Science Foundation, NASA, the
a                        Department of Energy, the Strategic Defense lr~itiativeOrgar~izatior
                         the Department of Defense, the United States Air Force, the United
States Army, and the Advanced Research Projects Agency. The
lawsuit also alleged that in their grant proposals, the defendants fai
to reveal andlor affirmatively denied the existence of the substantia
similar or essentially equivalent grants already funded by or pendin-
with the other agencies.

In addition to the $25,000 payment, the Settlement Agreement filed
district court also provided that in all proposals for Federal grants a1
contracts, the defendants shall fully and truthfully provide informatic
to the funding agency about similar or overlapping proposals submi
and awards received, and shall ensure that they do not receive fun(
for essentially equivalent or substantially similar work.

The case was handled by Assistant United States Attorney Emily J.
Kingston at the U.S. Attorney's Office; Montgomery Fisher, Senior
Counsel for the Office of the Inspector General for the National
Science Foundation; and Paul Coleman and Dixor~Robin,
Investigators for the Office of Inspector General for the National
Science Foundation.    ,




Copies of this press release, the settlement agreement, and the
Complaint in the case may be found on the U.S. Attorney's Office's
website at www.usdoj.gov/usao/can.

All press inquiries to the U.S. Attorney's Office should be directed c
                                                                     t
Assistant U.S. Attorney Matthew J. Jacobs at (415) 436-7181.
         '[
'   I
                                                                                                                                                      &a

                                            8




              --.   I      -                - .         -                   -                                                RECEIV~~
                                                                              -        -I
                                                                                                                             FEB 1 8 2002
        -      IChief Civil Division              on   onL=-y       a   --_  __
        -                                                                                   i                                 ~ OD IRV W
                                                                                                                             'm        IG,~~
               0 Assistant United States Atbmey
                            450 Goldm Gate Avenue, Box 36055
        5                   San Francisw, California 94102
                            Telephone: (415) 436-7000
                    Attameys for Plaintiff                                        %
                                                                                  .




                    UNITED STATES OF m                          c       A                                            ,        REWvED              -
          n          -      --,-=
                                                                                                                              FcB ?. 3 2ffQ
                                            -:-

                                                  i-        A   aa:   - - --          -73
                         W OFFJrnC                                                      d
                         Almaden Boulevard, Suite 800                                                                         ArrowEY
                                          95 113                                                                                      VIS,*~-CE
                                  (408) 298-7482                            . -

                    Attorneys for the Defendants LasexGenics
                    Corporation and Richard G.Scfilecht
                          Ec~ - ~ v ~ ~ - - - - - - ------- -
                         --. - ---                                                      ----- - -           -   --       -
                                                                      TED STATES DISTRICT COURT
                              FEB 1 4 2002 NORTHERN DISTRICT OF CAILIFORMA
                              RK;HARD W. WIR(Im                             SAN JOSE DMSION
                           CLERK U.S. DISmlCf mn
                                  t t i OF WF3WIA
                         N ~ ~ r DISTRICT
                                    S M JOSE
                                                                                                                                  I



                    UNITED STATES OF AWXUCA,                                                            ?
                                                                                                                 Case No. C-97-20900-JF


                    LASERGENICS CORPORATION and                                                                  STIPULATION TO DISMISS
                    RlCHARD G.SCHLECHT,                                                                          ACTION WITH PREJUDICE
                                                                                                                 AND PROPOSED1 ORDER
                                                Defendants.

                            Pursuant to the Settlement Agreement entered into by the plaintiff, the United States of
        24

        25
               I1   America, and the defendants, LaserGenics Corporation aad Richard G.Schlscht, on December 14,
                    2001, a ,copyof which is attached hereto as Exhibit A, as evidenced by the signatures of the puties'
        16     1 respective counsel set forth below, and in accordance with Federal Rule ofCivil P m d u r e 41(a),
                                        I


                    Parties*Stipulation to Dbmbs Actioa with Prejudice
                         Pw-dl-
                    C-97-209oO.JF                                                                   1
                                        .
              II
I



                               IT IS HEREBY STIPULATED AND AGREED, that the above-captiondmatter, may and
1I        1
I
          2       should be dismissed with prejudice, with each party to bear it^ own coats pnd                                                          fcak
                               IT IS SO STIPULATED.
                                                                        -
                                                                        Respectfully submitted,3



                                                               By ;-                                -    -   - -.    .-<---               ..- .,
                                                                                                                                               +
                                                                                                                                               k
                                                                                                                                               '.,
                                                                                                                                                     "



                                                                   -
                                                                   --
                                                                    L-.
                                                                      -a-    -.%.=         L--
                                                                                         -~=     ---w:-7
                                                                                                 L ~ .
                                                                                                     .LZ       -.--      +.  \?
                                                                                                                             \
                                                                                                                                              ue

                                                     ,    .                 kraistant ul~t~d
                                                                                          states ~ t t o i i i

                                                                        Attorneys for the United States of America
                                                                                             -
                                                                                                         -
                                                                                                         g'c
                                                                                                                         ,       r;.; s   r   ''+ZF:       t
                                                                        LAY""'                                       '   '                               --1




                                                                        ORDER

              I                 Pursuant to the Settlement Agreement entered into by the parties to thi. action, and the

                      Stipulation to Dismiss this Actian,
                                ITIS HEREBY ORDERED that this action is dismissedwith prejudice, with each side to
                      bear its own mats and attorneys' f a . The Clerk is ordered to close the file.
                                IT IS SO ORDERED*


                                                                   '        CU       r
                                                                                     -                       -   -                *   -         __
                                                                              --->-:-..--Judge
                                                                            :I<:?-
                                                                   "="~~ta=~ta'-&DlSmCt
                                                                                                  =
                                                                                                         4 . % + . :-
                                                                                                                    g '-
                                                                                                                       - .-\+.'J
                                                                                                                          ,&
                                                                                                                           A




                                                8

                                       tioa to Dismiss Action with Pr
                                                                    ewc
                                                                      ie
                                       -
                                       order

     -b
          4
               L,
                  "
                          -6

                                   -
                               be"..
                                            i
                                            I
                                                                                     2
        I


        1
            I
                -
                                                                     1.   fARnss
                            Thh Settlemeat Agreement (Agreement) is e n t d into this      14*      day of   -
                    2001 (he d k t i i v s dmL ofthe Agreement), by and o d e e n the United Sta!es ofAmerica, acting tbmugb

                    the Um'ted States Depatt.lllent of Justice and on behalf of the National Science Fouadatioa (NSF)

                    (dectively the "United States")            Richard G. Schlecht (Schlecht) d LamGorn'aCoIpOration
                            I

    I               (LaserGenics) (cokctivtly t h e . * ' W h d ~ " )(all
                                                                      , ofwhom arc hereafter nhed to as %e Parti-
    1
    I



I                   through thcir autharized represenMves.
I                                                 -.   --

I
I

I                                                                  w!BMmI&
I                                                                                                   .
                            As a prearnblc to this Agreement, the Parties agree to the fbllowing:
I                          A.       Eleven federal agacits offathe Small BusinessIrmovationRmearch C'SBIR") program,

                    which b d s rescad grante to & privatt sector.
I                           8.      Under the SBIR program, applicant8 are informed that agencies wiU not fund dup1icate

                    proposals & essentially equivalent or subtshntidly similar work. Although applicants are allowed to
    I

    I               submit duplicate proposals to diffctent agew:ies,they are required to advise pmpective agencies of any

                    current, pedmg, or Wd research projects that propaae subetautiatly 8h1ilar or essentially equivalent
                                        e

                    research to that in the proposal being submitted.



                    Settfemnt A p a n m t irr USA v. LarerOsnics
                    Corporatton and RIchard G. Seirlcckr, G97-20900 JT:
            C.     LaserGcnics is a privately owned c o p d i o n created in 1985 by its prdclent, Schldt.
     Since 1988, the Defendants presented more than one hundredpropods for SBIR fimding to ten diE-

    f r d d agcllcia, andreceived mbvctbao$1,700~000.OOiDSBIR fundsBan twenty-one - t a w .

            D.     On October 10,1997, the United States filed Unfted St-      v. LuserGenia Cmpmtion

    oted R i .G.S c h l d , Case No.C-97-20900-JF,
                                                 in the United States M c t Court fix the N d n m

    District of California, San Jose Division (hcrcinaftet "the Civil Action"). This cascr involvespnoposals
    funded or eubmittad by the Dtfmdants for Phase I projects to w e n government agencies or their

    subdivisions, including the National ScienceFoundation ("NSF'), the Natianal A w d c .and Space

    Adminishation (WASA"), tbe Department of h w CpgE"), the SG
                                                              -                         D e k Initiative

    Organization ('SDIO") (a companmt of the ~epakmentofD d h e (mD")), the United States Air
    Force ("USAF"? (a componmt of DOD), thc Army (a wmponeat ofDOD), and theMvancaiResear~h


e   Projects Agency CARPA'? ( a h sometimes r e f d to as the D e f b e Advunwd Research Pt0jey;t.s

    Agency (WARPA"))      (a CO-        of DOD).

           E,      The United States contands that the     ~~ knowingly made numerous false
    statements and certifications in an a#empt to receive multiple SBIR awards, which duplicated projects

    either previously funded by,or pmpmxlto,other government agencies. Spaifidly, (hiunited State8

    allqes that the &fadants received a duplicate grant h m NSF in the amount of $49,618.00 (NSF Grant

    # 8%1005) (the "NSF @"),after the same proposal had already been fUnded by NASA (NASA

    Contract # 3-25568) (the 'WASA contwt*'),and made three false statements or certificationsrtlative to

    the receipt ofthe three SBIR Phase I payments for theNSF grant. In additiori,the Unitsd States contends



    Settlement Agreemcan @,USA v. LaserGenim
    Corpomtfonand Richard G.Schlechr,C-97-20900 JF
            that the Defmhts mdc t w & ~htsc -entS                    Or W M i 0 n s h8t-           to obt& hdbg f a

        /   duplicative projects 'iathe %#owin8 p m p o h Army## 91-171 and 92-133; ARPA # 93*,                     DOE #Y

            8591-89-Iand11092-90-1;NASA# 3-25568;NSPi#Y8940125,8961005, md 91-61287; ~ ~ 1 0 # # 9 1 -

            015 and 92403; and U&W # 95-026-

                      F.      The United Stam contds that the grant propods submitted by thcDef-
            ref-           in Pmgmph E,above, were substantially W a r ar essentially equivalent to otbcrpqxm&
            pendingwith or fimded by dther government agencies. The Defebdstds routinely ceditied on the cans



            fimded by other gov-cqt         agencies, and tinther the Defendants did not meal the exhteace of such

                      - - in t
            o&er proposals        ---- crrrrbnt
                             k- -prior,           or pending w
                                          -- - - - --I._
                                                               rt sections- of
                                                              _ _ _ _
                                                         __l_"l____
                                                                               their grant
                                                                            -- -- -   --.
                                                                                           proposlrls.
                                                                                             -- -   -   -   "-- -

                      G.      The United States contends that it has certain civil claims' against the Oefindants under

            &G     False Claim Act, 31 U.S.C. 9%3729-3733, for the'usubmission of the essentially equivalent or

            substantiallysimilar grant propods r e f d in P-h                  E,above, to the fkderd agencies thK,ysh
                   SBIR           and soliciting and d v i n g payments on the NSF grant aAa the NASA pmt had

                                                                                                                             1
l
            a l d yb m                wbich conduct is mom specificallyand fully described in the cornplaint filed in

            hcivil Action md is hcrcindk r c f d 10 as the 'Tov&                Conduct," and that it is aatitled to dief



    I                 H.      The United States also contends that it has cettain adminidralk claims against the
    I
    1       DoTmdant~for engaging in the C o d Conduct, as spccifik in Paragraph G.above.

        i             I.      The Defendants, and each of them, deny the United States' conteatiom and allegations
        I
        1
            Settlement Agreement L USR v. &s#Genict
        1   Cbrparorion and Rfchurd G. Sckleeht, C-97-20900 l'F

        I                                                             3
)       and arsat that the claims made in the Civil ~ c t i o w&
                                                              n wjthout merit

                J.      The Parties hereto stipulate and agree that this Agrcemecd; or any r n b d o n therain,

        constitutesneitheran adinissionof liabilityby the Dcfmdants, nor a concessionbytbe United States that

        its claims were not w e l l - f b W

                K.      To avoid the delay, mxrtahty, inconvcniam, and ucpeme oflit&ation of tho &om
        claims, the Parties reach a full and final settlemat punnurat to the Terms and Caditions sat f d blow.



                                           -.m
                1.      P a m e : The Defendants agret to pay to the United Statea the wlm of Twenty-Five

        Thousand Dollars and No Cents ($25,000.00) (the ''Settlement Amount"). Payment ofthe !kttleanem

        Amount has heed and shall be r i d e as follows:


8                       a.       On or about Decesnber 7,2000, the DefemdanCs forwaded to the Unitad States of
                Arncrica, through tfrt United States Attorney's Office tbr the Nortbcm Di&ct of Califonria, a

    \
                check in the amount of Fifteen Thousand Dollars and No Cents ($15,000.00), as a show of good

                faithin anticipationof tbe executionofthie Agreement. TheUnited Stateshas retainedthis check
                in a safe within the United States Attorney's Ofice since its receipt. Upon the e x d o n of this

                Agreement, the United States shall negotiate the check and apply thc fuads in accordance wit31

                                                                        .
                this Agreunent. If the check is not honked for whatever mason by the drawer h n ~ i a i

                institutionreflected on the cbeck a&n the united states' negotiation ofthe check, the Defendants

                shall be in default of this Agreement.



        settlenmllAgmmeoS ta USA v. LarerGenics
        Corporation and Richard G. Schlecttr, C-97-20906 IF
                  b.      On or before sixty(60) days h m the dntc of the last signatweoftb*:Agreement,           .   @
           the Defmdants shall pay to the United States of A m u i q through the United States Attorney's

           OfIia for tht No-        District of California, thc sum ofTen Tho-          Dohand No Cents

           (~10,000.~).Failum to delivex full payment of h e Ten Thousand Doha snd No Cmta

           ($lO,000.00) on or befo& sixty (60)days fiam the date of the last signatme of this A               m

           shall constitute a default of this Agmmat

           2.    :-              In all propods for Federal grants and contracts, the Def-ts        shallm y
-   and tmMUy provide infinmation to the funding agency about similar or ovgiapping propods

    submitted andawardsreceived,and shall ensure that the Defendantsdonotreceivefunding for@ally




                  a      Defendants fully and fiaally rel?       the United States, its agencies, cmployeea,

          servants, and agents firomanyclaim (including attorney's faaa, GO*       a d expcoses of everykind
          end however denominated) which the Defandants have awxkd, could h e essatad,or may

          assert in the future against the United States, its agencies, tmployaes, smvants, and agents, re-

          to tbe C o v d Conduct and the United States' investigation and prosecution themof.

                 b.      Subject to the exceptions in Paragraph4below. in considerationof Che obligations
          ofthe Defendants set fbrtb in this Agreement, conditionedupon the DefendantssfirU payment of

          the Settlement Amount, the United States (on behalf of itself, its officns, agents, agencies, and
          departments) agrees to release the Defendants and their current and farmer directors, officers,
B          shareholders, employees, agents, mr-          and assigns (wllectively the "ReleasedParties")
                                                  ..
           from any civil monetary claim or arlrmnlstrative action the United Stater; bas or may have ander
                                                                                           ..   1

           theFalseClaimsAct, 3 1U.S.C.$8 3729-3733;the Program Fraud CivilRemadies&31 U.S.C.

           88 3801-38 12; or under common law t b d m ofpayment by mistake, @ust enrichment, breach
           ofcontract, and fiaud, for the C o v d Chiduck

                  c.      In consideration of the obligations of theDefendants set fnrtb in this Agreement,
           and conditioned upon the Defendants*payment in Wl ofthe Settlement &no-t         and adhemwe
           to the compliance provisions described in Paragraph 2,above,NSF agma to release and rcfi-ain

           h m                  dincting, or mainhbhg any administralive claim or any action saking

                                a a ~ against th ~ c f i t hr
           exchurion from ~ ~ d fmiing                      s              th; C   O   V   conduct.
                                                                                           ~        NSF
                          ---     -   -   .-.

           acknowledges that the terms of this Agreement do not result in a mandatory excluskm of the

e          released parties. Nothing in this Paragraph precludes NSP h m taking action a@ut the

           defendants, or otherpersons ore d tics, for condwtand practices forwhich civil claimshavebeen

           reserved in Paragraph 4, below, or as provided in the Default provisions set hxth in Paragraph

           1t,bclow.

                  d.      The releases contained herein are subject to the qualifications set forth in

           Paxagraph 4, below, and shall become M y operative upon the fill payment as contemplated in

           pmgraph i s , abbvc. The United States agrees to file it* dismissal with prejudiceof the civil

           Action within ten (10) days h m the dak of   funp a h a t as contemplated in Pmgmphs 1.aand
           1.b, above. Notwithstandii the dismissal of the Civil ~ction,
                                                                       the P&BS     stipulateand agree that



    Settlement Agramenl ill USA v. L a r e i c s
    Cwporatfonand Rich& G.AkhlecAt, C-97-20900 JP
                any subsequent action to edorce the provi8ion8 of this Agreement may be brought by petition

                before the Court in which the Civil Action was filed.
                                           *.



               4,        ~ J u s i o Notwithstanding
                                     ~:              any tenn of this Agreement, SpeCificaHy                   and

    I
    I
        excluded h m tbe scope and terms of this Ammerit as to any entity or petson (including the

        Defendants) are the following claims ofthe United Stata9:
I
                         r     Any civil, srindnal or achhkmivt tiability m      (6s United States d   k g UU&

               Title 26, U.S.Code @tend Revenue Codeh

1                        b.    Any criminal liability;

I                        c.   . Except   as explicitly stated in this Agreement, any administrative liability,

i              including mandatoryexclusionlimn Federal fundbg,               hma b&h       d o r d c a u l t ofthis        1




                         d.    Any liability to the United States (or its agencies) fbr any conduct 0 t h than the
                                                                                                                       a1
                         e.    Any claim ofthe United Statesbased upon such obligation8as are createdby this

               &g=m-;

                         f.    Any claims of the United States for personal injury or fix other consequential

               damages d c r a d by third parties arising fiom the C o v W Conduct;

                     ,   g     Any civil and administrative claims against individuals, including cumnt br

               former directors, officers,employees, agents or shareholders ofthe Defendants in the event, and          1
                                                                                                                        t
               only in the event that such individuals are criminallyindicted or c h a -or are wnvicted or who



        Setdement Agncment in USA v. b~
        Corporation and Richad G. Schleck C-97-20900 JF
       enter into a criminal plea agreement for the Covered Cod-      and
               h.      Any disputes or claims which may arise out of r a m conducted by            the
       Defhdants under any F d d fimding.

       5.      waiverof~ef-           1numnfttionwithtbeexscutionandperformance of this-

the D e f e waive and will not assat,in any criminal prosecutionrelating to the Coverod (hduct, .

any dcfc118es that may be based in whole or in part on a contention that,   unds thc Double J e q d y
Clause in the Fifth ~ m k e aoft the Constitution, a imQthe Excessive Fine8 CLPus in the Eighth

~mendmentof the ~onstituti&,this Settlementban .remedy rougbt in such c r h i d promcution. Th.
Defendants agree that this settlement is not punitive in purpose or eflluct. Nothing in this pmgmp&or

any otba provision of tbir Agceemmt &mtitutes an agreement by the United States cmmming the
                             - ..
o
c-n                                         t purposes ofihe kbmiaj Rev&
                 of the Settlement ~ k u n for                                    hk,Tide 26 of the
United States Code.

       6.
                  ..
               Bcnefiuan%s:This Agreement is intended to be fbr the expma benefit of

the United States and the D e f e t s in the civil~ & .nd
                                                      m the Released parties, only.     No third pmty
b e m M ~ rights
          y      arc matedor intended to be acWdby thisAgreement         ihspartiesdo notreleaserny
claims against any otber persans or entities.   *



       7.      pismissal ofClvrl  .
                            . AEfiPD and Court's R-on          ofJnn'sdictidxx Uponreceipt of the futl

payment described in Paragraphs 1.aand 1.b., above, the United States shall promptly sign and file in
                              d


the Civil Action a ~ t i ~ u k t i oofnDismissal with prejudice of the Civil Action p m t m the trmu of

the Agreement. The Court shall retainjurisdiction o v a the Civil Acdon so that the Civil Action can be




Settlement Agmxnmt in USA v. tacw(ianicr
Corporation and Riclwd G. Schleck, C-97-20960 JF
mpmed in the evcnt of a breach a u k default of this Agreema for the limited purpose of e             n f i

this Agmment or detamining a breach of this Agreement.

        8.       w:E x q t as expresslyprovided to the wnbary inthis Agreement., eachParty to this
Agreement will btar its own legal and other wsts incuned inconnection with this matte^, including the

prqpanlion and pedbnnance of this Agmment.

     . 9.             veminaLaw and Jurisdictio~:This Agrcanent is g o .v, dby the htws of theUnited

States. The Parties ngrpt that the exclusivejurisdiction dvenue for         &dispute aiiing betwam and
among tht Partits d e x this Agreement will be tbe United States Dietrid Court fbsthe NorlhemDisbkt

of Califbnria

       10.   '   Breach and/or Default: In the event ofbreach and/or defautt bythe Dcfhdants, ot & t k
                       --   -    -   .   -.   - -

of them, of the terms of this A m a n t , the Defmdanb shall bs:

                 a          Liable to theunited States for liquidateddamages in the amount of Seventy-Five
       Thousand Dollars and No Cents ($75,000.00) (Liquidated Damuges Amount); and
                                                                                                                .
                                                                                                                    a
                 b.         Subjcdto suspensionand/or debment for t h e years by any SBIR agency under

       the agency's susparsionand debameat regulations.

The Liquidated Damages Amount provided in Subparagraph (a), above, shaU be in acldition to tbe

payment ofthe Twenty-FiveTbausand Dollars andNo Cents ($25,000.00)Settlement h u n tprovided

fixin Paragraph 1, above, ofthis Agmment.           In the event ofbreach and/ordefau1t, the United Stateamay

seek by +tion to reopen the Civil Action in the District Court for the Northem District of Califbmia

for a determinationof default, to enforce the tams of this Agreement, to seek relief for the b m h and/or



Settlement Agreement id W v. LarerGmiu
fbporation and Richard 0. khlec& C-97-20900 IF
                                                          9
         default of this Agreement, to collect the Liquidated D
                                                              -        Amount, 8d to impose ;suspcosion or
)
         debarment ofthe Defendants by any SBIR agw. lfawarded by the Coud, the Liquidated Damages

         Amount shall not be subject to the automatic stay provisions ofthe United States B-tcy        Code,nor

         shall it be discharged.thn,u,gh any bankruptcy action fled by tbe Def-b       or either ofthem.
         receipt of an hdaby the Court awrrdiry the Liquidated Damaga Amount to the United SIdq &

         Liquidated Damagcr Amount shll be a ju-eot            Jim upon all propaty and right^       pmpa-tyof

         ~ c s ' a n d l oSchlacht,
                           r        and the United States moly seek to satisfjr the liabilityd o r collect 0x1the

         judgment lien though tbe ordinary collection means available to secured creditors. Should tbe United

         States rrted to seek enfixcement of     Agreement in District Court, Lhe; Deb- agree to pay a 1
                                                          *.


         reasonableattorneys' fies and costs incurred by theUnited States in fivthcranceof that actimintheevent
--- thr: United-States.is-the-prevailing-mrShouM-the- D e f e n d ~ - d e M t - 0 1 1 - t h i S - A ~ ~ + .-,
    -a                                                                                                    t h- ---
                                                                                                               e y-.- ~ ~
                                                                                                                        -I.----




-
         action relating to the mattersd e d i h      d

                I I.    Com~letcm e g a : This Agreement constitutes the wmplcb m e a t between the

         Parties. This Agreement may mt be amended except by writtea comeat of the Perti-.

                12.    :-                          The individuals signing this Agmmmt an bddf of the
         Defenclmts represent and w m t that they are authorized by the Dd'mdants to execute this Agrexanmt.        .

         The United States signatoriee represent that they are signing this Agreement in their official wpcitics

         and that they arc authorized to execute this Agreement.

                13.     werpm:ThisAgreement may be executed in counterparts, eachofwhich constitutes
        11/40/01      TUB 11:98 FAX                                                                                                                                                 BJ012~'.   - 1
                                                                                                                   1
                                                                                                                                                                                          '


    1        an original and all ofwhich constitute one and the same agrciment.

                             14.   -     Bindim-:                            T h i s Agreement is binding on the Dtfendaats' kccessars,

    I        transferees, heirs and assigns.
    I


I                            15.                 ve Date: This Agreement is effective on the date of signahue of tbc last

~
I
             signatory to tbs Agr~emmsFacsimiles of signatwe shall constitute accepttibit, binding signatures for

I            purposes of this Agreement.



                                                                                             DAVID W.SHAPIRO
                                                                                             United States Attorney
                                                                                                    ' District 6f ~alifornia

                   .......                       I                         By:
                                                                                                                                                   -- .......       --- .........
                                   . .      ..................      . . . . . . . . . . .
                                                                                                                       .   .   .   .   .   .   .   .   .        ~           . .


                                                                           By:
                                                                                             ANITA EISENSTADT
                                                                                   ,         Assistant General Counsel                                                                               1
                                                                                             Office of General Counsel
                                                                                             National Science Foundation



             DATED:            &
                               &                                            By
                                                                                                                                                                     vidual
                                                                                             capacity and in his capacity as president and owner .
                                                                                             of LaserGdcs Corporation,



                                                                                             Law Oflices of J. Byron Fleck

                                             a

             Settlement Agreement in USA v. Lasffientcr                                                                                                                                          I
             Corporationcurd Richard G. SchZecIhr, C-97-20900 JF
                                                                                                                                                                                                 I

                                                                                            11
